                                   Report In Brief
                                    U.S. Department of Commerce Office of Inspector General


Why We Did This Review             National Oceanic and Atmospheric Administration
River forecast centers are
responsible for issuing
                                   The Northeast River Forecast Center Is Well Managed, But
hydrometeorological forecasts
and guidance to weather fore-      Some Improvements Are Needed (IPE-17259)
cast offices (WFOs) and
water management organiza­
                                   What We Found
tions to assist with their water
resource responsibilities. The
                                   Overall, we found NERFC to be a well-functioning office. Our findings included:
Northeast River Forecast
Center (NERFC) covers
                                   Management and oversight of NERFC are adequate. Although relatively new, the
Connecticut, Maine,
                                   hydrologist-in-charge addresses problems or issues that arise and the office works well as
Massachusetts, New
                                   a team to issue the best possible river forecasts.
Hampshire, Rhode Island,
Vermont, and most of New
                                   The use of Geographic Information System (GIS) should be expanded. The NERFC is
York. We sought to assess the
                                   not taking full advantage of new GIS software that could make its products more useful to
adequacy of NERFC’s pro­
                                   the public, WFOs, state and local agencies, and other water managers.
grammatic and administrative
operations, determine man­
                                   NWS should be prepared to meet increased hydrology product demands and better
agement effectiveness, and
                                   document its plan for improving river forecast verification. The Advanced Hydrologic
assess how the NERFC coor­
                                   Prediction Services (AHPS) will enable NERFC and other RFCs to provide both more
dinates its activities with fed­
                                   information and increasingly complex hydrologic information to its users. This is expected
eral, state, and local govern­
                                   to increase the demand for more hydrology products and services and bring in new cus­
ment agencies and other
                                   tomers and partners—some with an understanding of hydrology, some without.
water management organiza­
tions.
                                   External partners are mostly satisfied, but some additional WFO and RFC coordina­
Background
                                   tion would be beneficial. NERFC regularly meets its deadlines for daily and weekly
The National Weather               products transmitted to the WFOs, although more coordination between some WFO fore­
Service (NWS) estimates            casters and NERFC may be needed during flood events.
that 90 percent of all natu­
ral disasters in the United
States involve flooding. On
average, over the past 20      What We Recommended
years, flooding has annual­
ly claimed more than 90        We made eight recommendations to the assistant administrator for weather services to
lives and caused damages       improve operations at the river forecast center, including:
in excess of $4.25 billion.
                                   Assign responsibilities, document the steps that need to be taken, and develop a time-
NERFC is one of 13 NWS line to implement a strong GIS capability.
centers located throughout
the United States responsi­        Develop, document, and implement a timeline and action plan for completing the
ble for conducting continu­ comprehensive river forecast verification system as soon as practicable.
ous hydrologic modeling of
river basins.
                                   Ensure that the Eastern Region Headquarters takes action to maintain proper WFO
To view the full report, visit coordination with the NERFC, as required in NWS Directive 10-921, including adequate
www.oig.doc.gov/oig/reports/20 coordination on the deadline for receiving updated RFC guidance products during a flood
05/NOAA-IPE-17259-08­
2005.pdf                       event.
